TA

C@QCKLE

° E-Mail Address:
Le ga 1 Briefs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923,

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

Nos. 19-431 & 19-454

LITTLE SISTERS OF THE POOR
SAINTS PETER AND PAUL HOME,
Petitioner,

Vv.
COMMONWEALTH OF PENNSYLVANIA
AND STATE OF NEW JERSEY,
Respondents.

 

DONALD J. TRUMP, PRESIDENT
OF THE UNITED STATES, ET AL.,
Petitioners,

v.
COMMONWEALTH OF PENNSYLVANIA
AND STATE OF NEW JERSEY,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE THE GUTTMACHER INSTITUTE IN SUPPORT OF RESPONDENTS in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this

brief contains 7491 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 8th day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL HOTARY-State of Wobraska | d f "ps Chk
RENEE J. GOSS ; si
My Comm. Exp: September 5, 2023

Affiant

      

 

Notary Public
